SIGAR                                                           Special Inspector General for
                                                                 Afghanistan Reconstruction




                                                                               SIGAR Audit 13-18




      Afghan National Security Forces: Additional Action
      Needed to Reduce Waste in $4.7 Billion Worth of
      Planned and Ongoing Construction Projects




                                                                              SEPTEMBER
                                                                              2013
SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning
                                                         September 2013



SIGAR
                                                         AFGHAN NATIONAL SECURITY FORCES: ADDITIONAL ACTION NEEDED TO
                                                         REDUCE WASTE IN $4.7 BILLION WORTH OF PLANNED AND ONGOING
                                                         CONSTRUCTION PROJECTS


Special Inspector General for                            SIGAR AUDIT 13-18
Afghanistan Reconstruction
                                                         WHAT SIGAR FOUND
WHAT SIGAR REVIEWED
                                                         The International Security Assistance Force Joint Command (IJC) has
Since 2005, Congress has appropriated                    established a process to review and analyze existing coalition facilities for
nearly $52.8 billion to equip, train, base,              transfer to the Afghan government. Specifically, in April 2012, IJC
and sustain the Afghanistan National                     instituted an Operational Basing Board that meets weekly to nominate
Security Forces (ANSF). As of April 2013,                and review existing U.S. and coalition facilities for closure or transfer to
the ANSF facilities construction program                 the Afghan government. The IJC board actively engages with Combined
had more than 400 ANSF facilities in                     Security Transition Command-Afghanistan (CSTC-A) and the Afghan
progress or in the acquisition or planning               Ministries of Defense and Interior to determine which facilities should be
stages. These facilities, worth $4.7                     transferred to the Afghan National Security Forces (ANSF). Through
billion, are designed to support the                     December 2012, the coalition closed 235 facilities and transferred 352
currently approved ANSF strength of                      other facilities to the ANSF, and per CSTC-A, helped reduce plans to
352,000 personnel. The Combined                          construct new ANSF facilities by 318 projects and reducing costs by
Security Transition Command-                             approximately $2 billion.
Afghanistan (CSTC-A) is constructing new
                                                         CSTC-A, with IJC assistance, has responsibility for managing the
facilities for the ANSF, while at the same
time the United States and coalition                     construction of ANSF facilities around the country. However, CSTC-A lacks
partners are reducing their presence in                  a comprehensive basing plan for the ANSF that considers future ANSF
                                                         reductions and excess capacity in existing facilities. Current construction
Afghanistan and, through the
International Security Assistance Force                  requirements reflect the currently approved 352,000 ANSF personnel
Joint Command (IJC), closing or                          level and do not take into account planned reductions in the number of
                                                         ANSF personnel. As a result, when the ANSF decreases to 228,500
transferring their facilities to the Afghan
government. SIGAR’s prior audit of ANSF                  personnel, ANSF facilities will have excess personnel capacity. SIGAR has
facilities expressed concern that CSTC-A’s               previously noted excess capacity and underutilization in existing ANSF
                                                         facilities. SIGAR attempted to review the occupancy of existing ANSF
lack of planning increased the risk that
CSTC-A was building facilities that did not              facilities and requested on-site personnel numbers for 36 randomly-
meet ANSF needs. In addition, the United                 selected ANA and ANP facilities, but IJC and CSTC-A officials informed


               Construction Stages and Cost of ANSF Facilities, as of April 20, 2013




               Source: CSTC-A Informational Brief, April 20, 2013


      For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
        Facilities Closed or Transferred to the Afghan Government through December 2012

                         Total Transferred through December 2012                                                Transferred To

                                                                                                        Ministry of             Ministry of
                       Type                            Closed                 Transferred
                                                                                                         Defense                 Interior
                                                                   0                       1                        1                         0
        Operational Bases
                                                                  57                    116                       81                       35
        Tactical Bases
                                                                178                     235                     106                      129
        Tactical Infrastructure

        Total                                                   235                     352                     188                      164

        Source: CSTC-A
        Note: Operational bases are large bases primarily used for within theater transportation and typically include an airfield; a tactical
        base is usually occupied by a battalion-sized element or smaller; and a tactical infrastructure is a very small, temporary location,
        usually occupied by a platoon-sized element or smaller.

SIGAR that they do not track this information. As a
                                                                            States, its NATO allies, and the Afghan government announced
result, CSTC-A is unable to determine whether either
                                                                            at the May 2012 Chicago Summit that the ANSF may shrink
existing or planned facilities meet ANSF needs, and
                                                                            from its currently approved strength of 352,000 to 228,500
may be missing opportunities to identify additional
                                                                            personnel, depending on security conditions.
planned facilities that are candidates for consolidation
or termination.                                                             The objectives of this audit were to assess (1) the extent to
                                                                            which U.S. and coalition basing plans for the ANSF reflect
Using CSTC-A’s 2012 base construction schedule,
                                                                            force strength projections; (2) whether CSTC-A analyzed
SIGAR identified 52 projects that may not meet the
                                                                            alternatives to minimize new construction, including using
International Security Assistance Force’s (ISAF)
                                                                            existing U.S. and coalition bases to satisfy ANSF basing needs;
December 2014 construction deadline, increasing cost
                                                                            and (3) the extent to which planned construction projects are
and oversight risks if these projects are continued.
                                                                            likely to be completed by December 2014.
SIGAR’s assessment differed from that of CSTC-A,
which estimated that only one facility worth $16                            WHAT SIGAR RECOMMENDS
million would not meet the 2014 ISAF construction
deadline. After SIGAR briefed CSTC-A on its analysis,                       To help ensure that the U.S. government is providing the
CSTC-A began reassessing project timelines. As of June                      appropriate number of facilities for the current and future
2013, CSTC-A had revised this estimate upward to 47                         ANSF, SIGAR recommends that the Deputy Commander, CSTC-
projects valued at $1.1 billion that would still be under                   A, among other things, (1) develop a plan that considers
construction beyond ISAF’s December 2014 deadline.                          potential ANSF reductions and defer building facilities, as
In comments on a draft of this report, CSTC-A stated                        appropriate, to reduce future excess capacity, and (2) identify
that it has several initiatives underway to identify those                  the extent to which current facilities are underutilized in order
areas where there is excess capacity and current                            to reduce construction of new facilities and save
projects can be de-scoped or cancelled. According to                        reconstruction funds. SIGAR also recommends that the Deputy
CSTC-A, from January to August 2013, these initiatives,                     Commander, CSTC-A, in coordination with the Commanding
combined with routine reviews, resulted in a reduction                      General and Chief of Engineers, U.S. Army Corps of Engineers,
of over $432 million in U.S. and coalition funding. In                      prepare a plan detailing specifics for security and oversight for
addition, the Commander, ISAF, has requested                                construction projects continuing past 2014.
quarterly reviews to ensure that facility requirements                      SIGAR received formal comments on a draft of this report from
remain valid and that construction is on track. The                         CSTC-A and IJC. CSTC-A concurred with all the
combination of locating ANSF construction projects in                       recommendations addressed to it and IJC concurred with the
dangerous areas and the downsizing and planned                              two recommendations addressed to it. Both CSTC-A and IJC,
withdrawal of U.S. forces will make it more challenging                     as well as U.S. Central Command, provided additional
to complete projects by the December 2014 deadline                          technical comments, which SIGAR incorporated, as
unless CSTC-A ensures that the necessary resources                          appropriate.
are available to provide oversight.

      For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
September 13, 2013
The Honorable Charles T. Hagel
Secretary of Defense

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan and
 Commander, International Security Assistance Force

Major General Kevin R. Wendel
Deputy Commander
Combined Security Transition Command-Afghanistan/Ministerial Advisory Groups

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers

Lieutenant General David M. Rodriquez
Commander, International Security Assistance Force Joint Command


This report discusses the results of SIGAR’s audit of base construction requirements and
transition procedures for the Afghanistan National Security Forces (ANSF). We recommend that
the Deputy Commander, Combined Security Transition Command (CSTC-A), in coordination
with the Commander, International Security Assistance Force Joint Command (IJC), (1) develop
a plan that considers potential ANSF reductions to 228,500 and defer building permanent
facilities, as appropriate, to eliminate future excess facility capacity, and (2) identify the extent
to which current facilities are underutilized and determine how excess capacity can be used to
reduce the construction of new facilities and save reconstruction funds for other purposes.
We also recommend that the Deputy Commander, CSTC-A, in coordination with the
Commanding General and Chief of Engineers, U.S. Army Corps of Engineers, prepare a plan
detailing specifics for security and oversight for construction projects continuing past 2014.
We received written comments on a draft of this report from CSTC-A and IJC, which we
incorporated, as appropriate. CSTC-A concurred with all three recommendations directed to it
and IJC concurred with the two recommendations addressed to it. Their comments are
presented in appendixes II and III, respectively. We understand that NTM-A/CSTC-A is currently
undergoing reorganization. This report should be forwarded to the appropriate office(s), as
necessary, once this reorganization is complete to ensure implementation of our
recommendations. SIGAR conducted this audit under the authority of Public Law No. 110-181;
the Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS


Background .................................................................................................................................................................. 1 
IJC and CSTC-A Review Existing Coalition Facilities for Possible Transfer to the ANSF ........................................... 3 
CSTC-A Lacks a Comprehensive Plan for ANSF Construction That Accounts for Future ANSF personnel
Reductions ................................................................................................................................................................... 4 

Projects May Not Meet 2014 Deadline, Potentially Increasing Costs and Hindering Oversight of Construction
Projects ........................................................................................................................................................................ 6 

Conclusion.................................................................................................................................................................... 8 
Recommendations ...................................................................................................................................................... 9 
Agency Comments ....................................................................................................................................................... 9 

Appendix I - Scope and Methodology ....................................................................................................................... 10 
Appendix II - Comments from the Combined Security Transition Command-Afghanistan .................................... 12 
Appendix III - Comments from the international Security Assistance Force Joint Command................................ 15 
Appendix IV - Acknowledgments ............................................................................................................................... 16 


TABLES

Table 1 - Facilities Closed or Transferred to the Afghan Government through December 2012 ........................... 4 
Table 2 - Change in Period of Performance for ANA and ANP Projects, 2012 ....................................................... 11 




FIGURES

Figure 1 - Construction Stages and Cost of ANSF Facilities, as of April 20, 2013 .................................................. 2 
Figure 2 - CSTC-A Project Schedule Compared to SIGAR Estimates for ANA and ANP Active Projects (as of
December 2012) ......................................................................................................................................................... 7 




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                                                                     Page i
ABBREVIATIONS

             ANA                         Afghan National Army
             ANP                         Afghan National Police
             ANSF                        Afghan National Security Forces

             CSTC-A                      Combined Security Transition Command–Afghanistan
             IJC                         International Security Assistance Force Joint Command
             ISAF                        International Security Assistance Force
             NATO                        North Atlantic Treaty Organization
             USACE                       U.S. Army Corps of Engineers
             USFOR-A                     U.S. Forces-Afghanistan




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                            Page ii
Since 2005, Congress has appropriated nearly $52.8 billion to equip, train, base, and sustain the Afghan
National Security Forces (ANSF), which include the Afghan National Army (ANA) and the Afghan National Police
(ANP). As of April 2013, approximately $9.2 billion of this amount has been provided to construct ANSF
facilities. Of this amount, approximately $4.7 billion in construction projects was in progress or in the
acquisition or planning stages. At the May 2012 North Atlantic Treaty Organization (NATO) Summit held in
Chicago, NATO and International Security Assistance Force (ISAF) partner nations pledged long-term support
for the security of Afghanistan.1 To that end, the U.S. government, in coordination with donor nations and the
Afghan government, is building and transferring facilities for a force of 352,000 ANSF personnel. At the same
time, coalition nations are reducing their presence in Afghanistan and closing or transferring existing facilities.
In conjunction with the withdrawal of U.S. and coalition forces in Afghanistan, ISAF guidance requires that all
remaining ANSF construction projects be completed by December 2014.2
In our prior audit of the ANSF facilities program,3 we reported that despite considerable funding and large
numbers of facilities being constructed, the Combined Security Transition Command-Afghanistan (CSTC-A),
under U.S. Forces–Afghanistan (USFOR-A) command,4 had not developed a long-range construction plan,
thereby increasing the risk that it was building facilities that did not meet ANSF needs. We recommended that
CSTC-A develop a long-range planning document that incorporated, among other things, updated requirements
and justification for all ANSF facilities to meet projected ANSF needs. CSTC-A did not fully concur with this
recommendation, but noted that it could improve “the identification of future projects and better document its
priorities.”
The objectives of this audit were to assess (1) the extent to which U.S. and coalition basing plans for the ANSF
reflect force strength projections; (2) whether CSTC-A analyzed alternatives to minimize new construction,
including using existing U.S. and coalition bases to satisfy ANSF basing needs; and (3) the extent to which
planned construction projects are likely to be completed by December 2014.
To accomplish these objectives, we reviewed ANSF planning guidance provided by CSTC-A, the ISAF Joint
Command (IJC), and the U.S. Army Corps of Engineers (USACE). We identified current and proposed ANSF
construction projects, their personnel capacity, and their average project delays. Additionally, we reviewed 411
ANSF construction projects implemented by CSTC-A to identify increases in periods of performance.5 We also
interviewed CSTC-A and IJC officials. We conducted our work in Kabul, Afghanistan from October 2012 through
August 2013, in accordance with generally accepted government auditing standards. Appendix I contains a
more detailed discussion of our scope and methodology.


BACKGROUND

Planned levels of ANSF personnel have changed considerably since the initial 112,000 level set in the 2001
Bonn Agreement. Since 2006, the Afghan government and international community have agreed to several



1Chicago Summit Declaration on Afghanistan Issued by the Heads of State and Government of Afghanistan and nations contributing to the
NATO-led International Security Assistance Force, May 21, 2012.
2   Department of Defense Report on Progress Toward Security and Stability in Afghanistan, December 2012.
3 See SIGAR Audit 11-6, Inadequate Planning for ANSF Facilities Increases Risks for $11.4 Billion Program, January 26, 2011. Since this
report, CSTC-A has modified the program and reduced the overall cost from $11.4 billion in January 2011 to $9.2 billion in April 2013. In
addition, the ANSF goal at that time was 400,000.
4 USFOR-A is the command and control headquarters for U.S. forces operating in Afghanistan. The Commander of USFOR-A is also the

Commander of the ISAF. USFOR-A oversees CSTC-A’s efforts to develop the ANSF.
5   Period of performance is the number of days between construction start date and end date.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                              Page 1
  increases in the ANSF personnel levels. Most recently, at the May 2012 Chicago Summit, the United States, its
  NATO allies, other coalition partners, and Afghanistan announced a preliminary size of 228,500 personnel for
  an enduring ANSF and committed to provide funding for it. According to the Department of Defense, the ANSF
  will remain at a surge level of 352,000 through 2015.
  Depending on security conditions, the Afghan government, in coordination with NATO and other partners, plans
  to refocus the ANSF toward enduring security roles and to consider how to reshape the ANSF into a more
  sustainable force, including through reducing the number of ANSF personnel. The Chicago Summit participants
  anticipated a carefully planned drawdown, based on security conditions, to an ANSF goal of 228,500
  personnel in 2017, from its currently approved level of 352,000, with an estimated annual budget of $4.1
  billion.
  To base and house the required troop level, the U.S. and coalition partners are providing ANA and ANP facilities
  in strategic locations jointly determined by ISAF and the Afghan government. CSTC-A, in coordination with IJC
  and USACE, has primary responsibility for planning, constructing, and managing the facilities required to house
  the ANSF.
  The Director of CSTC-A Combined Joint Engineering heads the ANSF base construction process. CSTC-A also
  coordinates with regional commands,6 local ANSF leaders, and the Afghan government. In addition to building
  new facilities, the coalition can choose to transfer existing coalition facilities to the ANSF.
  As of April 2013, the ANSF infrastructure program totaled $9.2 billion and consisted of 361 ANA facilities and
  762 ANP facilities. Of this amount, approximately $4.7 billion of construction projects are under construction or
  in pre-construction stages. As shown in figure 1, for the ANA, 214 projects (59 percent) are complete, 136 (38
  percent) are in progress, and 11 (3 percent) are in pre-construction stages. For the ANP, 507 projects (67
  percent) are complete, 234 (31 percent) are under construction, and 21 (3 percent) are in pre-construction
  stages. These new facilities are being built in addition to the 235 existing U.S. and coalition facilities that have
  been transferred to the Afghan government for use by the ANSF. Figure 1 shows that, as of April 20, 2013, the
  ANA and ANP construction projects in progress were valued at approximately $2.9 billion and $1.3 billion,
  respectively.

 Figure 1 - Construction Stages and Cost of ANSF Facilities, as of April 20, 2013




Source: CSTC-A Informational Brief, April 20, 2013.




  6 ISAF is divided into six regional commands across Afghanistan, each with a specific geographic area of responsibility—North, East, South,

  Southwest, West, and the Kabul area. The United States leads Regional Commands East, South, and Southwest.




  SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                              Page 2
IJC AND CSTC-A REVIEW EXISTING COALITION FACILITIES FOR POSSIBLE
TRANSFER TO THE ANSF

In April 2012, IJC established the Operational Basing Board, which meets weekly to review existing U.S. and
coalition facilities for closure or transfer to the Afghan government. IJC’s Directors for Future Operations and
Joint Engineer Directorate co-chair the board, which coordinates with the Afghan government to determine
which facilities may be suited for the ANSF. IJC officials stated that each regional command nominates U.S.
and coalition facilities for closure or transfer.7 The regional commands submit weekly nomination packets to
the board, which decides on a case-by-case basis whether to transfer nominated facilities to the Afghan
government.
Following IJC’s review, CSTC-A reviews the nomination packets and IJC’s recommendation. IJC and CSTC-A do
not always agree on whether to close or transfer existing facilities. According to Operational Basing Board
officials, IJC and CSTC-A may differ as to whether the facility is located in a strategic location or the facility is
temporary and no permanent facility is planned to replace it. When IJC and CSTC-A do not initially agree on
closure or transfer, their staff provides the information to the board co-chairs, who then jointly make a final
decision. After the Operational Basing Board review, information on the facility and the IJC and CSTC-A
recommendations are presented to the Afghan government, including the ministries of Defense and Interior for
review.
According to IJC officials, they hold weekly meetings with ministerial representatives to discuss facilities
nominated for transfer and receive Afghan input, analysis, and recommendations. IJC also provides the Afghan
government the coalition’s current sustainment costs for the existing facility and all parties use this
information in their decisions to either close or transfer a facility. Although initially the Afghan government
wanted all facilities transferred instead of closed, IJC officials stated that the Afghan government is beginning
to understand the need to close some facilities rather than transfer them. According to IJC officials, they will
close a facility unless they are confident that the Afghan government can fully staff, operate, and maintain it.
They claim that transferring too many facilities can lead to ANSF forces being spread too thinly across the
country, degradation of the facilities due to lack of use, and increased sustainment costs. They also contend
that because the Afghan government has limited resources, transferring all facilities would place an undue
burden on the Afghan government.
After CSTC-A, IJC, and the Afghan government conduct their reviews, the IJC co-chairs render their decision
regarding the future use of the nominated facility. Table 1 shows the number and types of facilities closed or
transferred to the ANSF through December 2012.




7A regional command provides the nomination packet and recommends a transfer or permanent closure. The information contained
within the packet also creates a linkage between tactical and operational needs, if the base is required for area security, and provides
coalition costs of sustainment. Regarding Special Operations Forces, an IJC official stated that since they are their own entity, IJC and
CSTC-A do not have ownership or control over their facilities. However, IJC asks Special Operations Command for awareness regarding the
special operations facilities and their potential future use.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                             Page 3
Table 1 - Facilities Closed or Transferred to the Afghan Government through December 2012
            Total Transferred through December 2012                                                    Transferred To

            Type                       Closed                Transferred              Ministry of Defense            Ministry of Interior
                                                  0                        1                               1                              0
Operational basesa
                                                57                     116                               81                             35
Tactical bases
                                               178                     235                             106                            129
Tactical infrastructure

Total                                          235                     352                             188                            164
Source: CSTC-A.
Note: a Operational bases are large bases primarily used for within-theater transportation and typically include an airfield; a tactical base
is usually occupied by a battalion-sized element or smaller; and a tactical infrastructure is a very small, temporary location usually
occupied by a platoon-sized element or smaller.

According to IJC, the Operational Basing Board’s assessment of facilities to be nominated, reviewed, and
approved for transfer or closure will continue until the end of 2014, on a facility by facility basis. In January
2013, CSTC-A projected that a total of 221 operational and tactical bases and 284 tactical infrastructures will
be transferred to the Afghan government through 2014.
IJC also stated that when facilities are transferred to the Afghan government, CSTC-A works to reduce or
eliminate facilities proposed or being constructed in that region, in response to the additional capacity created
by transferring existing facilities. In comments on a draft of this report, CSTC-A noted that most coalition bases
were built to “expeditionary standards with a relatively short lifespan”. However, CSTC-A acknowledged the
benefits of using these facilities to add flexibility to the ANSF construction program.


Transferring Facilities to and Modifying Facilities for the Afghans Have Reduced
CSTC-A Construction Costs
CSTC-A officials stated that transferring existing coalition facilities to the Afghans, in conjunction with efforts to
modify or terminate projects, helped reduce the ANSF program by 318 projects worth approximately $2 billion
between fiscal years 2011 and 2012. CSTC-A develops information papers that provide an overview of the
ANSF basing program within a region, including the status of planned or ongoing permanent projects and any
challenges associated with them. CSTC-A provided us with examples of these papers, which also identify
facilities that have been modified to help lower construction costs. For example, CSTC-A had planned to spend
$127 million to construct an ANA brigade headquarters in Faryab province, but it identified an existing facility
in the area that could meet the ANSF’s needs. CSTC-A cancelled the new construction and modified the
existing facility at a cost of $25 million. CSTC-A stated that this change resulted in about $100 million in
savings.


CSTC-A LACKS A COMPREHENSIVE PLAN FOR ANSF CONSTRUCTION THAT
ACCOUNTS FOR FUTURE ANSF PERSONNEL REDUCTIONS

Although CSTC-A and IJC have made progress reducing new construction projects through the review of existing
coalition facilities for closure or transfer to the Afghan government, as of June 2013, CSTC-A had still not
implemented a long-term basing plan. Instead, CSTC-A and IJC told us they modify ANSF projects and facilities
on an ad-hoc basis, taking into account changes in ANSF needs, input from regional commanders, and



SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                                 Page 4
knowledge of the changing security environment. According to CSTC-A, changing personnel requirements make
the development of a long-term basing plan difficult, especially because facilities take an average of 2 years to
build.
CSTC-A provided to us an April 2012 engineering directorate developed booklet entitled, Permanent Basing for
the Afghan National Army and Facility Stewardship Program. This booklet combines information from a
number of years of ANA facility construction and outlines what has been built, what is currently under
construction, and what is still being planned. This document has not been reviewed by Afghan ministries, IJC,
or CSTC-A senior officials and does not represent the official views of these entities, nor does it constitute a
guiding strategy or plan. CSTC-A also lacks a similar document for the ANP.
Two additional documents guide CSTC-A ANSF base planning and implementation efforts, but neither
constitutes a comprehensive plan. The first of these documents is entitled, “Annex K Operations Order Version
27.” This document, approved by CSTC-A, IJC, and the Afghan government, provides the requirement for
building the ANSF to 352,000. However, this document does not address future ANSF levels or basing needs,
and, as such, does not require basing plans to adapt to reductions in personnel. The second document is the
Afghan Program of Record which describes ANSF strength composition and functions, but it does not state the
required number of forces per ANSF facility.


CSTC-A Is Constructing Facilities That Will Have Excess Capacity
Currently, CSTC-A is building permanent facilities to house the surge level of 352,000 troops and plans to
continue this construction, despite plans for the ANSF to reduce its size to 228,500. The international
community and Afghan government approved a preliminary model for a reduced ANSF at the Chicago Summit,
calling for a reduction of 123,500 personnel in the ANSF, from a size of 352,000 in 2015 to 228,500 in 2017.
As a result, when the ANSF decreases to 228,500, ANSF facilities will have excess capacity.
We have previously reported on excess capacity or underutilization of ANSF facilities. For example, in a July
2012 report, we found three Afghan Border Police Bases in Nangarhar province that were either unoccupied or
were not being used for their intended purpose.8 Similarly, in a January 2013 report on the $7.3 million Imam
Sahib Border Police Company Headquarters, we found that only 12 Afghan personnel were present at a facility
built to accommodate up to 175.9 The report also noted that most buildings at the site appeared unused.
According to CSTC-A, the project was originally designed to accommodate 59 personnel, but a change in
requirements increased the capacity to 175. Nevertheless, the Afghan Border Police told CSTC-A that a facility
will rarely be at full capacity due to dispersed daily operations. Moreover, when we discussed the facility’s
underutilization with CSTC-A officials, they informed us that the construction plans for the ANSF were aligned to
the personnel strength of 352,000 and there were no plans to adjust the building program to varying
circumstances.
IJC and CSTC-A officials stated that until the reduced ANSF becomes a formal directive, construction of
permanent facilities will continue to be based on the current 352,000 ANSF personnel goal. The officials also
stated that reducing the ANSF to 228,500 personnel is an “international projected amount” and, as such, has
not been approved by ISAF. Therefore, IJC and CSTC-A officials told us they cannot deviate from the
construction plan until official guidance directs them to do so. IJC officials stated that while the Chicago
Summit guidance calls for a reduction in forces due to decreased international funding, the Afghan



8   SIGAR Inspection 12-1, Construction Deficiencies at Afghan Border Police Bases Put $19 Million Investment at Risk, July 30, 2012.
9 SIGAR Inspection 13-5, Imam Sahib Border Police Company Headquarters in Kunduz Province: $7.3 Million Facility Sits Largely Unused,

January 29, 2013.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                              Page 5
government may increase its funding amount—or reduce ANSF wages, costs, maintenance, and overhead—to
achieve a larger force.
Although CSTC-A does not have a construction plan for addressing a reduction in the ANSF to 228,500, CSTC-A
officials stated that if the reduction occurs, they will eliminate any planned bases that have not yet been
awarded. However, CSTC-A expects all base contracts to be awarded by September 2013, which will not
coincide with the ANSF reduction, so eliminating un-awarded projects will not be a viable option. CSTC-A
officials also stated that they can reduce the scope of non-completed projects after contract award.


CSTC-A Is Unaware of Facilities’ Current Usage
To better quantify excess capacity issues, we requested that IJC and CSTC-A provide us with on-site personnel
numbers for 18 ANA and 18 ANP facilities that had already been constructed. IJC responded that neither
command tracks on-site personnel numbers for these or other facilities. As a result, IJC and CSTC-A cannot
determine whether current facilities—let alone facilities under construction or being planned—meet ANSF
needs. In addition, given high annual attrition rates—31.8 percent for the ANA and 16.8 percent for the ANP
from March 2012 through February 2013—the ANSF are unlikely to achieve full capacity at all facilities built.
In commenting on our draft report, CSTC-A reported that it is working with the Ministries of Defense and Interior
to help them develop a comprehensive basing strategy that will provide a nationwide view of the current basing
capacity of each ministry, future basing requirements, and future Afghan budget constraints. According to
CSTC-A, working within the ministries’ processes of requirements validation, resource allocation, execution,
and feedback will provide the ANSF the flexibility needed to ensure that current and future needs are met. In
addition, CSTC-A stated that it has several initiatives underway to determine ANSF infrastructure capacity to
help identify those areas where there is excess capacity and current projects can be de-scoped or cancelled.
According to CSTC-A, from January to August 2013, these additional initiatives, combined with routine reviews,
resulted in a reduction of over $432 million in U.S. and coalition funding. As the coalition drawdown continues,
CSTC-A and IJC are working to identify additional opportunities to transfer coalition facilities to the ANSF
instead of building new facilities.


PROJECTS MAY NOT MEET 2014 DEADLINE, POTENTIALLY INCREASING COSTS
AND HINDERING OVERSIGHT OF CONSTRUCTION PROJECTS

In conjunction with the withdrawal of U.S. and coalition forces in Afghanistan, ISAF guidance requires that all
remaining ANSF construction projects be completed by December 2014. Prior SIGAR reports found delays in
completion of ANSF facility construction projects. For example, in January 2013 we reported that the
construction of the Kunduz ANP Provincial Headquarters incurred a 10-month delay and a $5 million cost
increase.10 In April 2013, we also reported that the ANP Main Road Security Company in Kunduz Province was
behind schedule and probably will not meet the target completion date.11
Using CSTC-A’s 2012 schedule, we identified historical delays in completion of ANA and ANP projects and
applied them to CSTC-A’s December 2012 schedule. Specifically, we analyzed a dataset of 136 ANA and 275
ANP construction projects active or completed during 2012, which amounted to $4.4 billion in government



10SIGAR Inspection 13-4, Kunduz Afghan National Police Provincial Headquarters: After Construction Delays and Cost Increases,
Concerns Remain About the Facility’s Usability and Sustainability, January 14, 2013.
11 SIGAR Inspection 13-6, Afghan National Police Main Road Security Company, Kunduz Province, Is behind Schedule and May Not Be

Sustainable, April 17, 2013.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                           Page 6
   contracts. We found that among the projects active during more than one reporting period in 2012, the period
   of performance increased an average of 215 days (74 percent) for ANA projects and 143 days (33 percent) for
   ANP projects beyond the initial estimated completion date. Using these average delays, we projected the
   periods of performance for 348 projects scheduled for completion by the end of 2014.
   As shown in figure 2, once these projected delays were taken into account, we estimated that 52 projects
   would go beyond the December 2014 deadline. In contrast, CSTC-A’s December 2012 schedule showed that
   only one project would extend beyond this deadline.

 Figure 2 - CSTC-A Project Schedule Compared to SIGAR Estimates for ANA and ANP Active Projects (as of
 December 2012)




Source: SIGAR analyses of CSTC-A ANA and ANP project data.

   According to USACE officials, changing security issues, changing construction requirements, and subcontractor
   performance issues have caused construction delays. CSTC-A and USACE coordinate to determine a new
   project’s period of performance, but historical delays are not taken into account in that determination. After
   CSTC-A submits the requirements for a given facility, USACE reviews the scope, designs the project, and
   determines the period of performance based on CSTC-A requirements. If the determined period of performance
   does not meet CSTC-A’s needs or timeframes, the scope and/or design are revised.
   USACE officials noted that the contractor is contractually obligated to complete a project on time. USACE
   officials work with the contracting officer and project office personnel to monitor the contractor’s progress, in
   accordance with construction schedules. In addition, USACE on-site engineers monitor the progress of a
   project. USACE meets with CSTC-A and the regional commands to discuss potential courses of action to
   address any issues that arise, including a contractor’s schedule. USACE officials stated that when a delay
   occurs, they evaluate the cause and determines whether to provide the contractor with additional time.
   According to USACE, all projects scheduled for completion in the last 90 days of 2014 or in 2015 are currently
   under review. USACE officials stated that they are coordinating with CSTC-A and the ANSF either to help ensure
   on-time delivery or to de-scope projects to provide a usable facility prior to December 2014. USACE may also
   recommend cancelling a project when the contractor fails to perform the work within the time specified in the
   contract or does not meet quality standards. CSTC-A makes a determination on whether to cancel a project




   SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                     Page 7
and notifies the contracting officer to terminate the contract. In September 2012, for example, CSTC-A
terminated three contracts in Regional Command–Southwest for poor performance.
In December 2012, CSTC-A reported that one facility, worth approximately $16 million, would not meet the
2014 deadline. In March 2013, we briefed CSTC-A engineers and raised concerns that additional projects
would continue into 2015. Following that briefing, in April 2013, CSTC-A began the process of reassessing
project timelines. As of June 2013, it reported that 47 projects worth approximately $1.1 billion would not be
completed by December 2014. CSTC-A is prioritizing these 47 projects based on regional command input,
ANSF operational needs, project location, the ability to use coalition facilities, and the ability to de-scope the
project. Once the review is complete, CSTC-A will present the projects to senior coalition officials for final
decision on whether to continue each project past 2014. In its comments on a draft of this report, CSTC-A
updated this number to 36 projects that are scheduled to go beyond 2014. USACE and CSTC-A officials
attributed the initial optimistic schedules to shortened project planning times in the rush to award all ANSF
projects by a December 2012 ISAF deadline. In comments provided by U.S. Central Command, it noted that the
Commander, ISAF, has requested a quarterly review of the ANSF construction program to ensure that
requirements remain valid and construction is on track.


Coalition Drawdown Creates Project Oversight Risks
USACE officials stated t hat because many ANSF projects are located in insecure areas, the downsizing and
planned withdrawal of U.S. forces will make it more challenging to complete construction projects on schedule.
According to USACE officials, the U.S. and coalition drawdown will adversely affect its ability to oversee and visit
construction projects. USACE plans to maintain a ratio of about 1.5 personnel in Afghanistan and the United
States for every active project in Afghanistan. As of April 1, 2013, USACE had 598 personnel managing 399
active and pre-award projects.12 In July 2013, USACE officials stated that after December 2014, it will have at
least 130 personnel managing about 50 projects. This assumes that the number of active projects will
decrease from 134 in July 2014 to 50 active projects after December 2014.
USACE officials stated that they will monitor the security situation in Afghanistan and adjust their execution
plan as necessary. Further, after the coalition drawdown, the officials said they intend to conduct project
oversight, but will use fewer USACE personnel to do so. For example, USACE officials noted the possibilities of
using local Afghan staff, third-party monitors, and aerial photos. In addition, when USACE personnel are
needed in-country for oversight, USACE officials stated that they can operate from outside Afghanistan by
conducting short on-site visits. In commenting on a draft of this report, CSTC-A stated that it is working with
USACE on developing a series of post-drawdown options to ensure adequate project management, including
hiring a construction management firm to live on site or using USACE’s existing Afghan quality assurance
personnel. In its comments, U.S. Central Command added that USACE has directed the Transatlantic Division–
Afghanistan office to focus exclusively on ANSF construction. Transatlantic Division–Afghanistan leadership will
evaluate construction progress, the evolving security situation, and engineer personnel to ensure that the
ANSF construction program remains on track until completion.


CONCLUSION

Transferring facilities to the ANSF, in conjunction with modifying or terminating facilities has allowed CSTC-A to
cut approximately $2 billion from the ANSF facilities construction program. We applaud CSTC-A for transferring
coalition facilities and modifying the ANSF construction program to save taxpayer funds. In addition, we are


12   USACE numbers include some non-CSTC-A projects.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                        Page 8
pleased that CSTC-A took additional steps during the course of this audit to modify or eliminate projects.
However, DOD is missing additional opportunities to reduce waste in the ANSF facilities construction program
before the drawdown of U.S. and coalition forces is completed in December 2014. Given the size and scope of
the remaining $4.7 billion ANSF basing construction projects, the U.S. government has the opportunity to
prevent the construction of excess facilities and reduce wasted funds. However, the U.S. is building permanent
facilities with lifespans of 25 years or more for a temporary surge force potentially lasting 4 to 5 years. With no
plans to address the impending 123,500 personnel reduction in the ANSF and reduce spending to support the
ANSF long-term goals, DOD is funding a program that is potentially building permanent facilities in excess of
the ANSF’s eventual needs. Furthermore, it is building these facilities without knowledge of current facility
utilization and the Afghan government’s ability to sustain them. We have previously reported that current
facilities are underutilized or not being used at all, and have repeatedly questioned the ANSF’s ability to
operate and maintain these facilities.
The U.S. ability to conduct direct oversight and ensure that contractors are being held accountable for
construction projects is diminishing quickly due to the continuing drawdown of U.S. and coalition forces from
Afghanistan. The December 2014 deadline is approaching, and, as our analysis showed, more construction will
remain after this deadline than CSTC-A originally estimated. If CSTC-A and USACE projects continue into 2015,
they must plan to provide adequate program management and oversight. Once U.S. and coalition forces
significantly reduce their presence at the end of 2014, without sufficient staff to manage and oversee projects,
USACE and CSTC-A’s ability to ensure successful completion will significantly decrease and thereby increase
the risk that the U.S. investment in these projects will be wasted.


RECOMMENDATIONS

To help ensure that the U.S. government is providing the appropriate number of facilities for the current and
future ANSF, we recommend that the Deputy Commander, CSTC-A, in coordination with the Commander, IJC,
immediately:

    1. Develop a plan that considers potential ANSF reductions to 228,500, and defer building permanent
       facilities, as appropriate, to eliminate future excess facility capacity.

    2. Determine the extent to which current facilities are being underutilized and how this excess capacity
       can be used to reduce the construction of new facilities and save reconstruction funds for other
       purposes.
To ensure that the U.S. government provides the necessary oversight and personnel for construction projects
extending to 2015, we recommend that the Deputy Commander, CSTC-A, in coordination with the Commanding
General and Chief of Engineers, USACE:

    3. Prepare a plan detailing specifics for security and oversight for construction projects continuing past
       2014.


AGENCY COMMENTS

SIGAR received formal comments on a draft of this report from CSTC-A and IJC. CSTC-A concurred with all three
recommendations addressed to it and IJC concurred with the two recommendations addressed to it. Both
CSTC-A and IJC, as well as U.S. Central Command, provided additional technical comments and updates on
implementation, which we incorporated into the report, as appropriate.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                       Page 9
APPENDIX I - SCOPE AND METHODOLOGY

The audit focuses on Combined Security Transition Command-Afghanistan’s (CSTC-A) overall planning process for
construction of the Afghan National Security Forces (ANSF) facilities in Afghanistan. Specifically, our objectives were
to assess (1) whether CSTC-A analyzed alternatives to minimize new construction, including using existing U.S. and
coalition bases to satisfy ANSF basing needs, (2) the extent to which U.S. and coalition basing plans for the ANSF
reflect force strength projections, and (3) the extent to which planned construction projects are likely to be completed
by December 2014. To accomplish our objectives, we reviewed relevant ANSF planning guidance provided by CSTC-A,
Internal Security Assistance Force (ISAF) Joint Command (IJC), and the U.S. Army Corps of Engineers (USACE). We
identified and analyzed the current and proposed ANSF facility projects, their personnel capacity, and the historical
project days to completion. We also interviewed relevant IJC and CSTC-A officials to gain an understanding of the
historical planning process. We reviewed information on construction projects active from December 2011 through
June 2013.
To determine whether CSTC-A analyzed alternatives to minimize new construction, including using existing U.S and
coalition bases to satisfy ANSF basing needs, we requested information on the Operational Basing Board, and
attended a board meeting to observe the transfer decision process. We also reviewed documentation specifying the
review process for existing coalition facilities, including facility nomination packets. In order to assess if this process
results in decreased cost, we reviewed CSTC-A information papers that identified facilities that were modified and
transferred, and as a result, reduced program costs.
To assess the extent to which IJC and CSTC-A have developed an ANSF basing plan that reflects force strength
projections, we requested documents that they use to guide the ANSF basing program. We were provided with three
primary documents: (1) Permanent Basing for the Afghan National Army and Facility Stewardship Program, (2) Annex
K Operations Order Version 27, and (3) Afghan Program of Record. We also requested documents outlining a basing
plan to account for the possible ANSF drawdown and determined that no plan exists. Additionally, in order to
determine if there is current excess capacity in existing ANSF facilities, we reviewed two SIGAR inspection reports of
completed ANSF facilities that noted excess personnel capacity.13 As a result of this review, we selected 36 ANSF
facilities and requested that IJC and CSTC-A provide the number of ANSF personnel located at each facility. IJC
notified us that the coalition does not track facility capacity, and as such, we were unable to project how many
facilities have excess capacity. With respect to assessing internal controls, we reviewed whether CSTC-A developed a
basing plan that reflects force strength projections and collected information on the utilization of existing facilities.
The results of our assessment are included in the body of this report.
To determine the extent to which planned construction projects were likely to be completed by December 2014, we
reviewed quarterly submitted CSTC-A ANSF construction projects active or planned during 2012. CSTC-A submitted
this computer-processed data to us on a quarterly basis during 2012; it included project names, locations, cost, and
start and completion dates. Through a review of the data and tracking projects through multiple quarters, we
determined that the data was sufficiently reliable for the purposes of our analysis.
We identified historical delays for projects and then applied these delays to 2012 ongoing projects. To do this, we
drew two separate but overlapping sets of data from CSTC-A’s reported Afghan National Army (ANA) and Afghan
National Police (ANP) projects. First, we looked at all projects that CSTC-A reported as active during two or more
quarters in 2012. This dataset contained 411 total projects, 136 ANA (62 percent of all reported ANA projects) and
275 ANP (72 percent of all reported ANP projects). Projects with missing start or completion dates were excluded



  13See SIGAR Inspection 13-5, Imam Sahib Border Police Company Headquarters in Kunduz Province: $7.3 Million Facility Sits Largely
  Unused, January 29, 2013 and SIGAR Inspection 12-1, Construction Deficiencies at Afghan Border Police Bases Put $19 Million
  Investment at Risk, July 30, 2012.




  SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                       Page 10
from this dataset, as were projects listed during only one quarter in 2012, as no changes in periods of performance
would be evident from these projects.
Using these 411 projects, we calculated any change CSTC-A reported to the period of performance. Table 2 shows
how the period of performance changed for ANA and ANP projects in 2012.

 Table 2 - Change in Period of Performance for ANA and ANP Projects, 2012
                                             ANA                                                ANP
  Change in
  Period of                                                 Average                                          Average
 Performance        Number of      Percent of     Average              Number of   Percent of    Average
                                                            Percent                                          Percent
                     Projects       Projects       days                 Projects    Projects      days
                                                            Change                                           Change

 Increase                  115           85%        +266       +89%         244         89%           +164       +38%


 Decrease                     15         11%          -83       -13%         11           4%           -74       -17%


 Unchanged                    6           4%            0        N/A         20           7%             0        N/A

 Total                     136         100%         +215       +74%         275        100%           +143       +33%
 population
 Source: SIGAR analysis of CSTC-A provided data
 Note: Percentages rounded.

We applied these averages to a second data set of reported projects with a projected completion date of January
2013 or later. We excluded projects missing start or completion date data, projects lacking a fourth quarter record,
and projects that closed as expected during 2012. A total of 348 projects—141 ANA and 207 ANP—met these
criteria.
Our analysis of this dataset aimed to understand the number of likely active projects at any given time during 2014
and 2015, taking into account historical delay averages. Two categories of projects were specifically affected by
our analysis: projects with only one record during the fourth quarter of 2012—which had therefore not yet
experienced recorded delays—as well as projects with a completion date in the future showing a 2012 period of
performance increase of less than the average.
For projects with no trendline data, we applied the population average percent change in period of performance
(74 percent increase for ANA projects, 33 percent increase for ANP) to the CSTC-A-projected completion date to
demonstrate the impact an average delay would have on active projects. For projects with trendline data, and
delays below the mean, we calculated new completion dates based on projects reaching average delays (266 day
delay for ANA projects, 164 day delay for ANP). Finally, we assumed projects with trendline data showing either a
period of performance decrease or no change during 2012 would remain as such, and therefore did not project
increases in periods of performance for either category.
We do not predict that all projects will be delayed by the average; these calculations were only intended to suggest
a potential outcome if current projects experience delays consistent with 2012 historical data.
We conducted our work in Kabul, Afghanistan, from September 2012 through August 2013, in accordance with
generally accepted government auditing standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusion based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The audit was conducted by the Office of Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law No. 110-181, as amended, and the Inspector
General Act of 1978, as amended.


  SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                         Page 11
APPENDIX II - COMMENTS FROM THE COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning   Page 12
                                        NTM-A/CSTC-A RESPONSE TO ORAIT REPORT
               '"Afghan National Security Forces: Additional Action Needed to Reduce Waste in $4.7 Billion Worth of
                                            Planned and Ongoing Construction Projects"
                             Report o. SIGAR-Inspection-13-18 (SIGAR Code: S lGAR Audit 069A)

               I . The purpose of lhis memorandum is to provide responses to SIGAR 's draft report.

               2. Recommendation I, Page 9, states:
               Develop a plan tbat considers potential ANSF reductions to 228,500, aod defer building permanent
               facilities, as appropriate, to elim inate future excess facility capacity.

                   a.   CSTC·A reviewed the draft. report and hfls the following comments:

                   b. CSTC-A concurs with SlGAR's recommendation. The CSTC-A is working through the Ministry
                      of Defense's (MoD) Construction and Property Management Department (CPMD) and Ministry
                      of Interior· s (Mol} Facilities Department (FD) to help them de~elop a comprehensive basing
                      strategy. This strategy will provide a complete, nationwide view of the current basing capacity of
                      each MiniS1ry ("what they have''). what their current and projected basing requirementS arc
                      ("what they need'') and what lheir anticipated future budgets w ill allow (''what they can afTord'').
                      Working within lhe larger ministerial processes of requirements validation. resource allocation.
                      execution and feedback reporting. this basing analysis process will provide the ANSF the
                      flexibility necessary to ensure lhat their current and furure basing needs are met. Critically. this
                      ongoing process must both adequately house the current force "'hile also affording sufficient
                      flexibility to allow for likely adjustments to future force structure or operational repositioning.

                   c.   The elemelll of flexibility required to deal with future changes to ANSF basing requirements has
                        been added to the Afghan basing portfolio by transferring Coalition Foree bases to the ANSF in
                        lieu of new, permanent construction. Most Coalition bases \\Crc built to temporary. expeditionary
                        standards expected to last only a few years. Housing a portion of the ANSF in these temporary
                        structures offers not only an obvious level of efficiency, but lhe relati\ely shon lifespan of these
                        facilities allows basing capacity to be readily deleted. Programmed funding for capital
                        construction in the out-year's budget (Code 25 Developmental funding) will afford lhe ANSF
                        flexibility in the event of alternative conditions, including: closing unneeded, end-of-lifespan
                        temporary bases ifforC·C levels are reduced: reinvesting in lhe sustainment of these temporary
                        bases if force levels are not drastically reduced; or investing in completing construction of
                        permanent bases if both the tactical situation and the projected force manning levels allow.

               3. Recommendation 2, Page 9, states:
               Determine t bc extent to which curr ent facilities are being underutili7.ed and how tbis excess
               capacity can be used to r educe the construction of new facilities and save reconstr uction funds for
               other purposes.

                   a. CSTC-A reviewed the draft. report and has the following commentS:

                   b. CSTC-A concurs with SIGAR's reeommendat ion. CSTC-A has se,eral current initiatives to
                        detem1inc capacity of current in-progress infrastructure builds. These initiatives will help
                        indcntify those areas where excess capaciry is present and current projects can be de-scoped or
                        cancelled_ CSTC·A has already permanently ofTset 27x kandaks worth of new construction with
                        the transfer of existing Coalition bases. Working closely with UC. CSTC-A has recently
                        executed a series of initiatives to compliment our routine programmatic reviews and adjustments.
                        To date in CY 13, these reviews and initiatives have resulted in a reduction of over $432M of US
                        and Coalition funding. As the Coalition base drawdown plan progresses. CSTC-J\ and IJC are
                        working to identify additional opportunities to offset new ANSF construction with the transfer of
                        existing Coal ition bases. Transferring existing Coalition bases has the advantage of immediately

                                                                Page I o f2




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning                                                          Page 13
SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning   Page 14
APPENDIX III - COMMENTS FROM THE INTERNATIONAL SECURITY ASSISTANCE
FORCE JOINT COMMAND




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning   Page 15
APPENDIX IV - ACKNOWLEDGMENTS

Daniel Chen, Senior Program Manager
Daniel Domke, Auditor-in-Charge
Mia Bonarski, Methodologist




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning   Page 16
                                     This inspection report was conducted
                                       under project code SIGAR-069A.




SIGAR Audit 13-18/Afghan National Security Forces Facilities Planning       Page 17
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
